IN THE SUPREME COURT OF THE UNITED STATES
No. ____
Andrew Stoveken,
Petitioner,
V.

State of New Jersey,
Respondent.

CERTIFICATE OF SERVICE
I, Steven D. Altman, counsel forPetitioner Andrew Stoveken, hereby certify that on this
date, April 12, 2021, I caused to be thePetition for Writ of Certiorari to be served
electronically upon the following parties:
Counsel for Respondent
John Donovan, D.A.G.
OFFICE OF THE ATTORNEY
GENERAL
25 Market Street
P.O. Box 085
Trenton, New Jersey 08611
donovanj@njdcj.org

Counsel for George Beecher
David J. Altieri, Esq.
GALANTUCCI ANDPATUTO
CourtPlaza South- West Wing
21 Main Street, Suite 151
Hackensack, New Jersey 07601
dja@gpesq.com

Steven D. Altman
BENEDICT AND ALTMAN
247 Livingston Avenue
New Brunswick, New Jersey 08901
(732) 745-9000
saltman@benedictandaltman.com

